CERTIFICATE OF SERVICE
I, William C. Doering hereby certify that 1 unbound
and 1 copy of the foregoing Petition for Writ of
Certiorari in, Judson A. Lovingood v. Discovery
Communications Inc., et al., were sent via Three-Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Three-Day Service and e-mail to the following
parties listed below, this 20th day of April, 2020:
STEPHEN D. HENINGER
Counsel of Record
HENINGER GARRISON
DAVIS, LLC
2224 1st Avenue North
Birmingham, Alabama 35203
(205) 326-3336
steve@hgdlawfirm.com
Counsel for Petitioner
DANIEL KAUFMANN, ESQ.
KIMBERLY BESSIERE MARTIN
BRADLEY ARANT BOULT CUMMINGS, LLP
200 Clinton Avenue West, Suite 900
Huntsville, Alabama 35801
(256) 517-5100
dkaufmann@babc.com
kmartin@babc.com
Counsel for Respondents

